April 22, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543

Re: Wolf v. Innovation Law Lab, et al (No. 19-1212)
Dear Mr. Harris,
National Office
125 Broad Street,
18th Floor
New York, NY 10004
Tel: (212) 549-2644
aclu.org
Susan Herman
President

I am writing to request a thirty-day extension of time in which to file
the opposition to certiorari in this case, through June 13, 2020. The opposition
is currently due May 14, 2020. The press of other matters makes submission
of the opposition difficult absent an extension
Please let me know if you require any further information. Thank you
very much for your time and assistance.
Very truly yours,

Anthony Romero
Executive Director

Judy Rabinovitz

cc: Noel J. Francisco, Counsel for Petitioner
Danny Bickell, Deputy Clerk

